Audit Report, “Use of Peer-to-Peer (P2P) File Sharing at [a NASA Center]” (IG-05-021,
June 9, 2005)

The NASA Office of Inspector General conducted a review to determine whether NASA
had established adequate Agencywide policies governing P2P file sharing and whether
the NASA Center had appropriately implemented those policies to control the use of P2P
file sharing.

We found that while NASA had a general policy prohibiting the use of IT resources to
download, copy, or distribute copyrighted and other materials, NASA had not established
a policy that explicitly governed the use of P2P file sharing. At the Center we reviewed,
we found that technical controls over P2P file sharing did not adequately protect NASA
systems from risks that could expose NASA to increased system vulnerabilities and
disclosure of sensitive information. NASA management concurred with the
recommendations and planned responsive corrective actions.

The report contains NASA Information Technology/Internal Systems Data that is not
routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
